No. 20-18
IN THE

Supreme Court of the United States
ARTHUR GREGORY LANGE,
Petitioner,
v.
STATE OF CALIFORNIA,
Respondent.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 15th day of January, 2021, I caused three copies of the Brief of Professor
Steven Penney as Amicus Curiae in Support of the Judgment Below to be served by
third-party commercial carrier on the counsel identified below, and caused an electronic
version to be transmitted to the counsel identified below, pursuant to Rule 29.5 of the
Rules of this Court. All parties required to be served have been served.
Brian H. Fletcher
STANFORD LAW SCHOOL
SUPREME COURT CLINIC
559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-3345
bfletcher@law.stanford.edu
Counsel for Petitioner

Amanda K. Rice
JONES DAY
150 West Jefferson Avenue
Detroit, MI 48226
(313) 230-7926
arice@jonesday.com
Court-Appointed Amicus Curiae in
Support of the Judgment Below

Samuel T. Harbourt
CALIFORNIA DEPARTMENT OF JUSTICE
455 Golden Gate Avenue
San Francisco, CA 94102
(415) 510-3919
samuel.harbourt@doj.ca.gov
Counsel for Respondent

David Debold

